<html>
<title> - REGIONAL OFFICES: ARE THEY VITAL IN ACCOMPLISHING THE FEDERAL GOVERNMENT'S MISSION?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
     REGIONAL OFFICES: ARE THEY VITAL IN ACCOMPLISHING THE FEDERAL 
                         GOVERNMENT'S MISSION?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2001

                               __________

                           Serial No. 107-49

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
77-858 PDF                  WASHINGTON : 2002

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
              Dianne Guensberg, Professional Staff Member
                           Scott Fagan, Clerk





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2001....................................     1
Statement of:
    Chistolini, Paul, Acting Commissioner, Public Buildings 
      Service, U.S. General Services Administration..............    18
    Henton, Doug, president, Collaborative Economics.............    12
    Ink, Dwight, president emeritus, Institute of Public 
      Administration, former Assistant Director for Executive 
      Management, Office of Management and Budget................    26
    Stoker, Mike, senior partner, Law Offices of Mike Stoker.....     5
Letters, statements, etc., submitted for the record by:
    Chistolini, Paul, Acting Commissioner, Public Buildings 
      Service, U.S. General Services Administration, prepared 
      statement of...............................................    19
    Henton, Doug, president, Collaborative Economics, prepared 
      statement of...............................................    16
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, letter dated April 9, 2001............     3
    Ink, Dwight, president emeritus, Institute of Public 
      Administration, former Assistant Director for Executive 
      Management, Office of Management and Budget:
        Chart on public health training..........................    30
        Prepared statement of....................................    35
    Stoker, Mike, senior partner, Law Offices of Mike Stoker, 
      prepared statement of......................................     8


     REGIONAL OFFICES: ARE THEY VITAL IN ACCOMPLISHING THE FEDERAL 
                         GOVERNMENT'S MISSION?

                              ----------                              


                         MONDAY, APRIL 9, 2001

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                 San Francisco, CA.
    The subcommittee met, pursuant to notice, at 2 p.m., in the 
Ceremonial Courtroom, 19th floor, 450 Golden Gate Avenue, San 
Francisco, CA, Hon. Stephen Horn (chairman of the subcommittee) 
presiding.
    Present: Representatives Horn, Ose and Burton.
    Staff present: J. Russell George, staff director and 
counsel; Bonnie Heald, director of communications; Dianne 
Guensberg, professional staff member; and Scott Fagan, clerk.
    Mr Horn. This hearing of the subcommittee will come to 
order. This is the first in a series of three field hearings to 
examine the intergovernmental efforts among State, local and 
Federal Governments. Today, we will investigate the 
effectiveness of the Federal Government's regional offices in 
providing public services and their interaction with State and 
local government agencies. On Friday, April 13, 2001, in San 
Diego, we will look at drug interdiction efforts by Federal, 
State and local governments. Our final field hearing in this 
series will be held on Monday, April 16, 2001, in Long Beach to 
review the challenges in completing the Alameda corridor 
project, a joint venture between State, local, and Federal 
Governments. It is the most major intermodal transportation 
project in the United States. It is under budget and on 
schedule. That is a rarity.
    The existing Federal regional office structure was 
established in 1969 during the Johnson administration. This 
structure included 10 regions covering the 50 States and U.S. 
territories. The 10 regions are divided into New England; the 
Northeast and Caribbean; the Midatlantic; Southeast; Great 
Lakes; Heartland; Greater Southwest; Rocky Mountain; Northwest 
Arctic; and Pacific Rim. San Francisco, the site of today's 
hearing, is the headquarters of the Pacific Rim Region.
    Today the Internet and computer technologies are 
transforming the nature of the interaction between the Federal 
Government and the Nation's citizens. This movement toward e-
government could revolutionize Federal operations and the way 
government delivers its services to the public. We will explore 
the structure of the regional offices, established more than 
three decades ago, to determine if it is still the most 
efficient way for the Federal Government to work with State and 
local governments to meet the needs of its citizens.
    The subcommittee will examine whether today's environment 
of faster and easier communications calls for the use of a more 
decentralized office structure. Specifically, the subcommittee 
will examine whether it is time to re-engineer the Federal 
regional structure, how relationships with Federal, State, and 
local governments might be improved to better provide services 
to the public, whether Federal agencies have increased or 
decreased the size and number of regional offices, and whether 
there are viable and cost-effective alternatives to the 
existing structure.
    To discuss these issues, we have a panel of experts 
representing a wide array of viewpoints. We welcome the 
Honorable Dwight Ink, president emeritus of the Institute of 
Public Administration. Also, a former Assistant Director for 
Executive Management in the Office of Management and Budget, 
which, as all of you know, is part of the Executive Office of 
the President. Mr. Ink was responsible for establishing the 
original Federal regional structure, and will discuss how the 
structure came about.
    We will also hear from Mike Stoker, attorney and former 
chairman of the Santa Barbara County Board of Supervisors and 
the California Agricultural Labor Relations Board. Mr. Stoker 
will provide his perspectives from his experiences dealing with 
the Federal Government in his roles with both the State and 
local government.
    We also welcome Doug Henton, the president of Collaborative 
Economics. He will discuss his work on an initiative to improve 
the way the Federal Government works with regional governments.
    We also have Paul Chistolini, acting Commissioner, Public 
Buildings Service, General Services Administration, to discuss 
his agency's role in supporting Federal regional activities. We 
look forward to the testimony of each of these gentlemen.
    I will put in the record now at this point a very helpful 
letter from Congresswoman Anna G. Eshoo, who represents the 
Palo Alto/Silicon Valley area. She describes in her letter the 
helpfulness of various regional officials, who helped look at 
personnel training matters and all the rest in relation to East 
Palo Alto, where there was a tremendous amount of crime and 
everything else. And she says, with great appreciation for the 
regional staffs, that they all turned together to see where 
their agency could be the most helpful in solving the problem. 
And it is well on the way to solving the problem.
    [The information referred to follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Horn. So now, since most of you know how this system 
works, as an investigative committee, we do swear in all 
witnesses. So if you will stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note the witnesses have agreed to 
the oath, and we will start. Let us see, we have got a few 
outside trying to find a parking place and other things. But 
let us start then with Mike Stoker, senior partner with law 
offices in Santa Maria. We are delighted to have you here. Mr. 
Stoker has had Federal experience, State experience, and county 
experience.

 STATEMENT OF MIKE STOKER, SENIOR PARTNER, LAW OFFICES OF MIKE 
                             STOKER

    Mr. Stoker. Well, thank you, Mr. Chairman. Let me first say 
I want to thank you for inviting me to participate in this 
hearing. I also want to commend you for examining what is an 
important issue for those in the public and private sectors who 
have regular dealings with Federal agencies.
    My comments are based from my experiences both in the 
private sector, as an attorney who has had extensive dealings 
with local, State, and Federal regulatory agencies, and also 
from my public sector experience, both as a member of the Santa 
Barbara County Board of Supervisors, and as chairman of the 
California Agricultural Labor Relations Board.
    Let me begin my testimony with a question. Why is it that a 
Federal regional office would not, as a first preference, be 
located in the capital of the State in which the regional 
office is located? I ask this question, as there are numerous 
examples, at least in California, in which the regional offices 
are not located in our State capital, Sacramento, but are 
located in many cases throughout the State, including here in 
San Francisco. If we are focusing solely on the issue of siting 
a regional office where it makes sense to carry out its 
responsibilities and obligations, Sacramento, in most cases, is 
where several regional offices, in my opinion, should have been 
located. From my experience, I cannot think of many situations 
where a Federal agency should not be located in the capital of 
the State in which the regional office is located, if that 
agency has either regulatory oversight or is an agency involved 
with providing federally mandated social services.
    I can remember numerous situations when I served on the 
Santa Barbara County Board of Supervisors in which I had to 
travel to Sacramento, and then to San Francisco, to deal with 
issues in which I had to interact with both the State and the 
Federal counterparts. If you have a problem involving any issue 
in which the Federal Environmental Protection Agency has 
jurisdiction, you will travel to Region nine here in San 
Francisco, and then typically continue on to Sacramento to meet 
with the State counterparts with CalEPA, who will often have 
concurrent jurisdiction. I may add that every day individuals 
and businesses in this State that have EPA compliance issues 
will make that same exact trip.
    With this in mind, why is this geographical barrier between 
offices necessary? Not only would locating these offices in one 
city be more user-friendly, it would also make the jobs easier 
for the respective staffs who often have to meet with each 
other to work out jurisdiction and compliance matters.
    Now, it is clearly not my intention here to single out EPA 
as the one example of this phenomenon. There are numerous 
examples of this geographical separation taking place. The 
bottom line is there is not a situation in which the regulatory 
issues or social services are concerned, that the State's 
headquarters for the counterpart is not located in the State 
capital, Sacramento. And I can assure you that hundreds of 
trips are made each day by members of the private sector and 
representatives of local government who have dealings 
pertaining to welfare; Medi-Cal; endangered species and 
wetlands; clean air; water; labor; and the list goes on and on. 
For many of those folks Sacramento is only one leg of a two-
stop trip. To better accommodate them and better coordinate 
between State and Federal agencies involved, it makes sense to 
locate these offices in the same city. While I cannot speak to 
situations in other States, I would assume that 99 percent of 
the time that State offices will usually be headquartered in 
the State capital. If efficiency and effectiveness are the 
desired goal, then the regional offices' presumed preferred 
location should be the capital of the State involved, unless a 
compelling reason to the contrary can be demonstrated.
    For instance, trade and commerce issues may warrant 
locating Federal offices in San Francisco or Los Angeles or 
your hometown, Mr. Chairman, Long Beach, based on Pacific Rim 
factors and the fact that the cities I just named serve as 
major trade centers. However, keep in mind that California's 
headquarters for the Department of Commerce and Trade is 
located in Sacramento, as is the California World Trade 
Commission headquarters. Likewise, Immigration & Naturalization 
Service matters may need to be based in Los Angeles or San 
Diego because of the nexus those cities have to immigration 
issues. In regards to the National Labor Relations Board, when 
I was chairman of the California Agricultural Labor Relations 
Board [ALRB], which is coincidentally located in Sacramento, I 
always assumed that the reason the NLRB's regional office is 
located across the bay in Oakland was due to the strong labor 
movement the Bay Area is known for. If that is not the reason, 
I cannot think of a rationale for not being located in 
Sacramento. If that is the reason, perhaps that is a reason 
enough that is compelling enough to justify the location in 
Oakland.
    Before I close, I would like to offer two caveats to my 
testimony. First, which I think is clear from my personal 
experience, my perspective is solely based on intrastate 
experiences, me being in California, dealing with California, 
and having Federal regional offices located in California. I 
have no idea how my counterpart that may live in Arizona would 
feel who has to come to a regional office located somewhere in 
California, which leads me to my second point. At least as far 
as the lack of siting regional offices in Sacramento could be 
concerned, many of these offices were sited or located back in 
the 1960's, some in the 1970's, some going back to the 1950's. 
Sacramento, I think, as you know, Mr. Chair, up until 25 years 
ago, did not have an international airport. That very well 
could have been the reason to take into account those people 
coming from other States to deal with regional offices that 
would have to be located in the West Coast, that the 
transportation issue made it inconvenient to travel to 
Sacramento. That reason has not existed for 25 years, with 
Sacramento having an international airport. All my dealings 
with California, from an intrastate perspective, are based on 
knowing that relationship has existed in Sacramento, and 
knowing that transportation hub has existed with the 
international airport now being located in Sacramento.
    Hopefully what I have shared with you will prove beneficial 
as you consider Federal regional offices and their locations, 
and whether they could better serve the public and fulfill 
their responsibilities if they were located in different 
locations. While such an assessment may not appear on the top 
10 list of things that need to be addressed in our Nation's 
Capital, on behalf of all of us in the private and public 
sector who have regular dealings with these State and Federal 
agencies, let me thank you and commend you again for the task 
you have accepted. I will be more than happy to answer any 
questions you may have.
    Mr. Horn. Thank you very much. That is a very helpful 
perspective.
    Our next presenter is Doug Henton, the president of 
Collaborative Economics. And you might explain to us a little 
bit about Collaborative Economics.
    [The prepared statement of Mr. Stoker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
  STATEMENT OF DOUG HENTON, PRESIDENT, COLLABORATIVE ECONOMICS

    Mr. Henton. Thank you, Mr. Chairman. I very much appreciate 
the opportunity to testify today on the use of Federal regional 
offices. Over 20 years ago, when I worked in the Federal 
Government, I actually worked in two Federal regional offices 
here in San Francisco and Atlanta as part of what was then the 
Department of Health, Education, and Welfare, now Health and 
Human Services. In addition, I worked in the Washington, DC, 
office for the Secretary. And it struck me at the time that 
Federal regional offices do play a unique role in the Federal 
system, so I am pleased to be here to offer my thoughts on a 
changing role, given the things that are happening in today's 
world.
    My firm, Collaborative Economics, is based in Palo Alto, 
and we provide a range of services to regional business and 
civic organizations. An example being Joint Venture: Silicon 
Valley, which is a group that was formed over 10 years ago of 
business, government, and community leaders who come together 
to work on common problems. The first president of Joint 
Venture was former Senator Becky Morgan, and the most recent 
president of Joint Venture is Rubin Morales, who recently was 
named the head of intergovernmental relations for the White 
House.
    What these regional groups do is try to bring together 
leadership in a region so that you can work more effectively on 
the problems of those regions, very much similar to the Gateway 
Cities partnership in the Congressman's district. We have 
worked with a number of regional organizations in California, 
and now Collaborative Economics serves as a coordinator for a 
national organization called the Alliance for Regional 
Stewardship. And we represent about 25 regions around the 
country, again mostly metropolitan regions that are trying to 
develop stronger practices in their region. This alliance is a 
learning network where the regional leaders come together, 
share information, and try to develop effective approaches.
    And what I want to share with you is one innovation that is 
being developed as part of these conversations among 
metropolitan regions. Within that alliance, we have a Committee 
on the Regions that is working to promote a new partnership 
with the Federal Government. One of the priorities is to 
streamline and really improve the way that the Federal planning 
requirements themselves work at the regional level so you can 
increase flexibility, so that regional groups can plan in a 
more integrative way. What we are arguing for is a more bottom-
up approach where regions develop plans to fit their needs, and 
then work with Federal agencies to bring the Federal agencies 
in to help implement those plans. In this approach, the Federal 
agency acts as a partner with the regional groups.
    So let me give you one example right here from the Bay 
Area, to try to flesh this out and give you a flavor. In most 
metropolitan regions there are numerous metropolitan planning 
organizations, councils of governments, regional air quality 
districts, regional development districts. This is quite 
common. We have that here in the Bay Area. All of these and 
many more make up the landscape of regions today. Alongside 
these public agencies, there are a bunch of civic organizations 
that are formed, like Joint Venture: Silicon Valley.
    Now, this problem actually results from a history of what I 
would call top-down policy overlays. Over the last 30 years, 
every time a Federal agency wants to implement a Federal 
program, it mandates the different regional structure. Now, the 
most recent example of this is the transportation programs in 
the T-21 which has a metropolitan planning organization 
structure which allows regions to plan, which is excellent. The 
problem is that does not always mesh with other regional groups 
in the metropolitan area. Here, for instance, in the Bay Area, 
we have many separate organizations, which I will speak to in a 
second.
    Now, viewed from the top-down, a program perspective, this 
may not only be inevitable, but desirable, because it appears 
to allow for accountability for a Federal program. However, 
looked at from the region, the metropolitan region perspective, 
these Federal policy overlays create a crazy-quilt pattern 
which we might call ``siloed planning.'' So let me give you the 
example here in the Bay Area. The Bay Area--in this case 
Oakland, San Francisco, and San Jose--is actually trying to 
deal with this problem of fragmentation. The role of the 
Federal regional office has been absolutely critical.
    In the nine-county Bay Area there is a Council of 
Governments; the Association of Bay Area Governments [ABAG]; a 
Metropolitan Planning Agency, the Metropolitan Transportation 
Commission; a Bay Area Air Quality District; a Bay Area Water 
Quality District; the Bay Area Conservation and Development 
District; and a business-led organization called the Bay Area 
Council. Now, an attempt was made in 1989 and 1990 to 
consolidate all of these organizations into a single agency. 
That was legislation that was carried by former Senator Becky 
Morgan in the State legislature, and that legislation failed. 
Because, when you talk about regional government, you are 
talking about another overlay, and local governments are very 
resistant to create a new form of regional government, and it 
was not adopted.
    Then the leaders of the Bay Area got innovative. They tried 
a bottom-up collaborative approach, partnering with Federal 
agencies in a new way. First, the leaders of the Bay Area 
Council, which is a business-led organization, local 
governments, and the non-profit sector came together under the 
auspice of a new organization called the Bay Area Partnership. 
They invited the regional director of the Federal Health and 
Human Services agency, who played a critical role in this, to 
work with them. And in this particular case, they identified 
areas that were the most impoverished neighborhoods, 46 in all. 
A new coalition was formed, called the Bay Area Alliance for 
Sustainable Development, a joint effort of the Bay Area 
Council, the business organization; ABAG, the government 
organization; Urban Habitat, an environmental group; and the 
Sierra Club, to create an initiative called Community Capital 
Investment Initiative, which is providing funding to low income 
neighborhoods working with mainstream financial institutions 
such as the Bank of America, Washington Mutual, and Wells 
Fargo.
    They are participating in a four pilot region process 
nationwide which has gone under the term the ``reverse RFP,'' 
meaning a demonstration where you would actually have the 
regions define their need, and then invite Federal agencies to 
join with them in the solutions. It is under a leadership group 
called the Partnership for Regional Livability. The Bay Area is 
now working with Federal agencies on this initiative, including 
the regional office of Housing and Urban Development; the U.S. 
Department of Commerce; EDA; EPA; the Federal Reserve Bank, 
which is an independent agency, but they are involved; GSA; 
HHS; and Labor, on this initiative.
    And here is how it works. Rather than having the Federal 
Government come through with mandates, this is actually a 
reverse approach which, as I said, is an upside-down approach, 
where the Federal agencies, particularly the regional offices, 
are asked to participate in these projects defined by the 
region. In this case, working together, metropolitan regional 
leaders and Federal partners have identified how to support 
mixed use, mixed income housing, commercial, and industrial 
developments in targeted neighborhoods in this region. It 
requires a mixed approach because it involves HUD, it involves 
EDA, it involves the Federal Reserve, it involves the Treasury. 
In this case they have all come together on a team to work 
together to solve the problem here within a region.
    There is a second ``reverse RFP'' underway as well around 
the use of geographic tools for planning. In that case the U.S. 
Geological Survey, based in Menlo Park, is playing a critical 
role here regionally as well. In both cases, the Federal 
regional agencies are viewed as part of a team, not simply 
funders or regulators.
    What is different about this picture? Regional cooperation 
at the grassroots level around specific needs defined by a 
region has resulted in agreements, and in every case there is a 
signed agreement, with Federal agencies participating. Even 
five local regulatory agencies have joined in through the 
project as well--and what I mean by that are the Bay Area Water 
District and the Air Quality District and other local groups--
to identify and implement regional priorities. The focus is on 
shared outcomes built into that partnering agreement. A bottom-
up approach replaces the more traditional top-down approach. 
While there is no attempt to consolidate the regional agencies, 
the regional public and private groups are working again in 
partnership with these regional agencies.
    We need more experiments, and I do not think there is one 
model here. But what I would hope, you might want to try more 
experiments like the one being tried here--the other regions 
are also involved: Atlanta, Chicago, and Denver, so this is 
something that is happening in four places right now with 
Federal participation--to test a new way of looking at a 
partnership.
    Federal agencies, and particularly Federal regional 
offices, play a critical role in this model. In addition to 
their traditional grantmaking and service delivery roles, 
Federal agencies can be partners with their regions in 
developing these bottom-up approaches. The regional agencies 
can participate more effectively and on a regular basis if they 
are here. It is very difficult for the Washington offices of 
these agencies to participate because of both distance and 
time. They not only gain a knowledge of the region by 
participating in these types of exercises, but they are able to 
tailor the Federal response to regional needs. It is unlikely 
that a more decentralized approach could be administered simply 
from the headquarters office only.
    So finally, in this age of Internet, information can flow 
quickly from many sources. And there is almost a so-called 
death of distance, and the Internet does redefine distance. But 
it is been our experience in Silicon Valley and elsewhere that 
place still matters; even more, in fact, in the new economy. It 
is those face-to-face relationships that build the trust and 
the knowledge that are important to develop these types of 
partnering relationships. Federal regional offices, we believe, 
should be full partners with regions in developing these new 
types of innovative approaches, particularly that result in 
region-specific strategies.
    So I guess I would conclude by saying I believe that the 
Federal regional offices play a very important role in the 
Federal system, but their role might change in a more bottom-
up, regional-driven process. Thank you very much, and I would 
be happy to answer any question, Mr. Chairman.
    Mr. Horn. Thank you. That is a very worthwhile perspective, 
and we can pursue that a little further with questions.
    Our next presenter is Paul Chistolini, who is the acting 
Commissioner, Public Buildings Service, General Services 
Administration. He has formerly been a regional director, as 
well as other different things that he has done over his civil 
servant lifetime. We are delighted to have you here, 
Commissioner, and please proceed.
    [The prepared statement of Mr. Henton follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
   STATEMENT OF PAUL CHISTOLINI, ACTING COMMISSIONER, PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Chistolini. Thank you, Mr. Chairman, and good 
afternoon. I am pleased to appear before you today and provide 
information on the space holdings, both leased and owned, that 
GSA provides to the Federal agencies in the San Francisco and 
Oakland areas.
    We have six federally owned buildings that provide 
approximately 3 million square feet, or approximately 68 
percent of the total space used by Federal agencies in San 
Francisco and Oakland. The remaining 32 percent, or 1.6 million 
square feet, is comprised of 53 leases throughout the area. We 
provide the space to virtually all agencies of the executive 
branch, as well as space for the Federal judiciary and Members 
of Congress.
    The thrust of GSA's space management program has been, and 
continues to be, a sharp focus on maximizing the use of 
federally owned space. Examples of this are major renovations 
currently underway here in San Francisco at the Appraisers 
Store Building, and also the planned construction of a new 
Federal building here in San Francisco. These two actions will 
decrease the amount of space leased by the Federal Government 
in the San Francisco and Oakland area by approximately one-
third.
    Now, the market cost of lease space in San Francisco and 
Oakland has been influenced by two key elements. First, almost 
no new space has been added to the commercial space inventory 
in recent years. And second, the demand for space by the 
financial, technology, and business development sectors has 
been at an all-time high. This combination resulted in driving 
the amount of available space to an all-time low, while at the 
same time virtually resulting in bidding wars for Class A 
commercial space. The cost of available Class A commercial 
space has doubled in recent years.
    Since the beginning of 2001, just 3 months ago, rates for 
Class A commercial space in San Francisco have dropped from 
their all-time highs of $90 to $110 a foot, to the $65 to $75 a 
square foot range. These high rates resulted in the recent 
relocation of three Federal agencies from leased space in San 
Francisco to leased space in Oakland where the rates for 
comparable space are 25 to 30 percent lower.
    These high rates for leased space have made the cost of 
retrofitting older Federal buildings to meet current seismic 
standards a very attractive investment. Increased retrofitting 
of our older buildings will further reduce our dependency on 
leased space that we use to meet the needs of the Federal 
Government.
    That concludes my prepared statement, Mr. Chairman, and 
thank you for this opportunity. I would be glad to answer any 
questions you may have.
    [The prepared statement of Mr. Chistolini follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Horn. Well, thank you.
    We have got another witness or so that are driving here, 
and hopefully we will have that before the end of the day. Let 
me ask a few questions now.
    Mr. Stoker, do you believe there are opportunities to use 
new technologies, such as teleconferencing, that would help 
relieve some of the logistical problems you discussed in your 
statement? What do you think about that?
    Mr. Stoker. Well, Mr. Chairman, certainly the technology is 
there, and to some extent more and more it is being utilized. I 
think anything we would do, you know, getting back to my 
underlying premise, at least from an intrastate perspective, I 
do not see how siting a Federal regional office is going to be 
anything but a positive impact, at least to anybody in the 
State of California, if hypothetically it was in Sacramento, 
where the State counterpart is. I would start from the premise 
unless that negatively affects people from other States that 
come in here, that is the first and foremost. Because when you 
are dealing with a regulatory issue or when I had social 
service issues as a county supervisor, and we did a lot of 
teleconferencing often in terms of, not with the Federal 
counterpart, but with the State counterpart from Santa Barbara 
and the county seat.
    But when you have problems and you are trying to work out 
those problems, it is better having the teleconferencing versus 
not having it at all, but seeing people face-to-face in that 
room that have concurrent jurisdiction or have roles that are 
similar with the task that you are trying to solve, 
teleconferencing is never going to replace the strategic 
benefit of having all the players, the stakeholders, in that 
room together. But it is definitely available. I would say if 
you cannot put everybody in that same room, then the next-best 
alternative is to be very aggressive with teleconferencing.
    I will give you an example at the local level--what we did 
in Santa Barbara County now, which is being done more and more. 
As you know, Santa Barbara is a pretty large county. The Board 
of Supervisors meets twice a month in the southern part of the 
county, and then they meet twice a month in the northern part. 
When they meet in the northern part, people can testify from 
the county seat in Santa Barbara by teleconference, where there 
is a video there, and they can testify to the board and not 
have to go up to northern Santa Barbara County, and then vice-
versa.
    So the technology is there, it should be used; but it is 
never going to replace--especially when you have problems that 
you need to have stakeholders together, working them out 
together in a collaborative way--it is never going to replace 
the advantage of everybody being together in the same room.
    Mr. Horn. Well, I agree with you on some of that, that 
presumably you do not get the informal vibrations, if you will, 
in how to negotiate with each other and this kind of thing. You 
could certainly use it for information-gathering and that kind 
of thing.
    Mr. Stoker. Absolutely.
    Mr. Horn. No problem there.
    Mr. Stoker. Absolutely not.
    Mr. Horn. The problem is do you solve the problem. And so I 
just wonder what these two gentlemen's experience would be on 
this, and the degree to which, say, GSA, I know, is doing a 
lot, as are other Federal agencies, where people who will keep 
working at home and then fax it in or e-mail it in, as the case 
may be. And that does not really necessarily provide for 
interactions. On the other hand, some supervisors do worry 
about that, and what happens. I would be interested in what Mr. 
Henton has to say and what Mr. Chistolini has to say.
    Mr. Henton. Well, I think that face-to-face is always the 
best way to negotiate a complex problem, and I would agree 
getting all the right people in the room, there is just no 
solution better than that. But, I will also agree that clearly 
with the Internet and with the tools that we now have, we can 
do a much better job of sharing information immediately, so 
that there is no sort of delay in trying to get information out 
about new programs or new initiatives or new things that people 
need to go through. I really do think they complement each 
other in terms of the use of the technologies, but I do not see 
them as a substitute.
    We look a lot at this issue in our work in Silicon Valley, 
and I have come to the conclusion that the Internet is a 
complement to face-to-face, not a substitute. But I think there 
is a lot--the Federal Government is the largest repository of 
information in the world, and it has more information than it 
has even disseminated that it knows. It is a content provider.
    So if we could have the Federal Government playing a much 
better role in Internet and sharing of information effectively, 
I am thinking even--I mean, I am going a little bit in a 
different direction here--but geographic information that is 
coded at a level that people can use at the county level, 
information dissemination that is easily accessible is 
something the Federal Government really can do a lot more. And 
it can be done over the Internet. We have the tools. It is just 
a question of commitment.
    Mr. Horn. What do you think, Mr. Chistolini?
    Mr. Chistolini. What I have noticed in recent years, as the 
other gentlemen have pointed out, is Federal agencies are 
depending a lot more on telecommunications, the Internet, for 
the dissemination. We have programs like firstgov.gov where the 
average citizen can come in and find out information about 
their government, get forms, that sort of thing. The IRS uses a 
lot of this. The Internet is certainly affecting the citizen's 
ability to get information in a timely and accurate way.
    We see a lot of our tenant agencies going more toward that 
and trying to find ways to make it easier, sort of doing e-
business, and it requires a big investment. But a lot of that 
is being done in conjunction with local governments.
    Mr. Horn. Does GSA have a sort of motivational way to get 
the other Federal agencies to either learn about the equipment 
or to get wiring to do the equipment? Just to what degree is 
GSA sort of the overall person for giving them ideas of new 
technology which maybe their teenage kids might give, also? 
What can you do to improve things?
    Mr. Chistolini. Well, we do have an Office of Government-
wide Policy that regularly brings people together from 
different Federal agencies to basically share good practices on 
the use of space, the use of equipment, and meeting the needs 
of the citizens for information and for access to information 
across the country. So a lot of that has been done.
    There has been a number of joint projects that have been 
done with agencies such as IRS. I believe the President's 
budget announced today will show that there is some funding in 
there for some additional projects that will both ensure 
security of the information, as well as the dissemination of 
that information.
    Mr. Horn. Does GSA work with a lot of the different Federal 
agencies in the regional offices so they can coordinate the 
delivery of these services to the public, and has anybody ever 
assigned and looked at the situation as to are we mostly 
talking about the taxpayer, or are we talking about other 
officials at different levels, or what? Or are we missing 
something somewhere?
    Mr. Chistolini. Well, most of our emphasis has been on 
providing a good infrastructure inside of a building so that 
agencies can meet their individual needs. Most agencies are 
determining for themselves how they will deal with the public. 
GSA tends to look at how we can put the right infrastructure in 
a building so that an agency can meet its needs in whatever way 
possible.
    Mr. Horn. A lot of buildings are being broadbanded now when 
people move in, and certainly in the private sector. Have we 
done much of that with the public sector?
    Mr. Chistolini. We have done quite a bit of that. And we 
are also making our buildings more accessible to the 
telecommunications industry so you could have multiple 
providers in a building which would meet individual tenants' 
needs.
    Mr. Horn. There is a partnership for intergovernmental 
innovation, and I wondered the degree to which the GSA 
initiative works with all those levels of government, could we 
implement an electronic type of government? Has anybody got a 
laboratory where they do that at all now? I know you try to 
show them what the latest instrumentation is, but is there a 
human component there where you have got to really help them 
work their way through?
    Mr. Chistolini. Well, we actually have one in the GSA 
central office in Washington--in fact, it is just above my 
floor--where we partnered with Carnegie Mellon Institute out of 
Pittsburgh to lay out the space, do assessments of people's 
abilities to work better before they moved, and actually 
surveyed them about how much efficiency they gained after. And 
that is based on the space, the layout, the furniture, the 
ergonomics, their access to information, the climate control, 
their ability to control that climate in their work space. And 
we have published quite a bit of results on that and 
information on that. We share that with the private sector.
    Mr. Horn. Carnegie Mellon is the institution in the country 
that is perhaps the major university in terms of looking at 
computer security. Have you also involved them with computer 
security so--we have got privacy files by the millions in the 
Federal Government, and what do we do to really make sure 
peoples' privacy is kept as private as we can?
    Mr. Chistolini. That is a little bit out of my area, but I 
do know that within GSA we have an Office of Information 
Security which has been working with Carnegie Mellon on those 
issues, as they have been working with the rest of the Federal 
Government to provide better cyber-security, if you will.
    Actually, one thing on the innovative sharing of 
information, we have worked quite a bit with the State of 
Pennsylvania, which has done some innovative--I will call them 
green offices, where we have shared best practices about what 
works for people being able to work both in the office, and 
also to be able to work say 1 day out of every 2 weeks at their 
home or some other location.
    Mr. Horn. That is very helpful.
    I see that Mr. Ink has come, and we are delighted you are 
here. Mr. Ink has testified before Congress for 50 years. I do 
not think anybody else has that record. Only John Quincy Adams 
came maybe close, an ex-President.
    Mr. Ink. I was a little young when he was President.
    Mr. Horn. You and Strom Thurmond.
    Mr. Ink. Yes.
    Mr. Horn. But we are glad to see you, and we would like for 
you to give us your perspective, because you are the one that 
started a lot of this in terms of regional field organizations. 
So go ahead and take your time.

   STATEMENT OF DWIGHT INK, PRESIDENT EMERITUS, INSTITUTE OF 
PUBLIC ADMINISTRATION, FORMER ASSISTANT DIRECTOR FOR EXECUTIVE 
          MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Ink. When Chairman Horn beckons, we all respond. I hope 
the people in California realize how effective he is. It is 
great to be here.
    This area that the committee is talking about today, is one 
that at one time was center stage in terms of Federal focus, as 
well as a State and local focus. But it is pretty much off the 
radar screen now in terms of interagency coordination or even 
coordination within individual major cabinet departments. I 
understand, Mr. Chairman, that there is interest in this 
committee on the interaction, both within the Federal 
Government and with respect to other levels of government. If I 
am correct, then that is what I would like to focus on in my 
testimony.
    A bit of history I think is useful here. During the days of 
the Great Society, local assistance programs were being born, 
two or three programs a month, it seemed. They were trying to 
meet needs that had been long overdue in terms of recognition, 
and the cities were burning. So these programs were put 
together pretty hastily, and almost no attention was given to 
their delivery systems. It is a little known fact that 
management was deliberately squeezed out of the design of most 
of the Great Society programs because of a fear that management 
would drain those programs of innovation, and would stifle 
innovation. Of course, what happened was the reverse of what 
was intended. They developed a tremendous maze of bureaucratic 
processing and red tape, each program being developed by 
itself, without reference to other related programs within the 
agency or among other agencies. It was very difficult for 
communities and neighborhoods to coordinate the Federal 
Government. Any time an innovative and bold mayor or city 
manager or city council tried to put together programs drawing 
upon different Federal funding sources, they found that each 
one had a different form to fill out, different criteria, 
different standards to meet. They had to meet with Federal 
people that were scattered perhaps in three or four different 
States. Smaller communities did not have the funds to deal with 
the fragmented Federal Government, and oftentimes those 
communities that most needed help from the Federal Government 
were the ones that had the greatest difficulty in utilizing 
these Great Society programs that were intended to help them. 
So it was very, very frustrating, and there was no one in a 
position to help the local communities draw together these 
fragmented categorical grants that were needed to attack these 
core problems in the cities.
    With the support of the Bureau of the Budget, this problem 
was first addressed on a department-wide basis when the 
Department of Housing and Urban Development was established in 
1965. To compensate for the fragmentation in HUD, which was 
similar to what you find in every department in Washington, as 
HUD was established we set up strong regional offices around 
the country. And these regional offices did have full authority 
to act, which is somewhat unusual.
    Secretary Weaver, who was the first Secretary of HUD, 
insisted that those offices be headed by career people, not 
political appointees. As head of HHFA, he was sick and tired of 
the problems and the corruption that grows out of the political 
pressures in administering programs. This pressure is very 
different from the political process which is absolutely vital 
and essential in establishing policy. But he felt it was very 
important to be able to administer assistance projects on a 
non-partisan basis.
    Each region was headed by a career person at the top of the 
career ladder, a GS-17 or GS-18. And there was an Assistant 
Secretary for Administration, which at that time had a lot of 
strength in the department, who was assigned the responsibility 
for monitoring the departmental system to make sure that these 
headquarter units did not negate the freedom, the initiative, 
and the authority that the regional directors had. There were 
also metropolitan expediters assigned by these regions to go 
out and rove around the communities in which these regional 
directors were responsible, they would talk independently with 
the local officials to see what problems, from their 
perspective, might be emerging, so that they could be dealt 
with by the region before they developed into serious issues.
    Now, this is very significant, because what I am talking 
about is just the precise opposite of how we approach these 
problems today in most instances. Because these were 
established, these were designed, the whole system was designed 
not from the perspective of Washington, but from the 
perspective of the local communities, neighborhoods, and to 
some extent the States. In those days the States were not 
regarded as very strong, so the focus then was more heavily 
upon the local communities.
    That field structure worked very well. But that was only 
one department. So that left the broad coordinating 
difficulties still in place for departments that needed to draw 
upon, for example, the Labor Department, poverty programs that 
were then in HEW and HUD, that would deal with a major 
community or neighborhood that was perhaps devastated by fires 
and riots. At the time Johnson left office, the frustration 
level was extremely high. And by far, the greatest criticism 
directed toward the Federal Government at the time he left 
office was this problem of Federal assistance programs being 
such a managerial and administrative mess. Even though Johnson 
intended these to help people, often they were just getting in 
the way of the help.
    When Nixon came into office--and this is quite different 
from the image that most of us now have of Nixon--with all this 
political flack, with the grant system, reforming it was 
initially his No. 1 domestic priority. Within a few weeks of 
his inauguration, he issued a whole series of orders to begin 
to make sense out of the Federal grant system. He ordered that 
the whole country be divided into 10 regions, and that each of 
those 10 regions have a regional city. By the way, San 
Francisco was 1 of those 10 regional cities. And each of these 
regional cities would have a regional council. I had the job of 
overseeing the execution of this order.
    The regional council was patterned after what we found to 
be very successful in rebuilding Alaska after their earlier 
earthquake. Alaska was so remote that I set up a field team in 
Alaska composed of the top Federal official from each of the 
major departments and agencies that were involved: the Corp of 
Engineers, Defense Department, Interior, HHFA, and so on. They 
functioned as a coordinating group. We did not give that field 
team any authority as a group. The authority they had to 
utilize was the authority that the individual members had from 
their own department. The 10 regions we set up much later 
across the country were patterned after that Alaskan 
experience.
    We also set up what we called ``council watchers'' out of 
the Bureau of the Budget in Washington. They spent a great deal 
of time in the field meeting with these councils to make sure 
that they facilitated action, rather than becoming another 
layer. That was our greatest fear, that they would in time 
become another layer, and simply delay things, rather than 
expedite. That is the reason that we had the OMB people out 
working with the councils. These OMB people also were visiting 
with local officials and State officials to see how the Federal 
grant system was functioning from their perspective. We tried, 
only partially successfully, to get the departments to shift a 
number of high grades from Washington out to the field. We were 
more successful with respect to getting the delegation of 
authority on grants moved out to the field.
    This new arrangement was very, very successful, to the 
point that we had several joint letters from associations of 
mayors, Governors, and city managers, State legislatures, 
complimenting us. I would like to ask, Mr. Chairman, if for the 
record I could submit a before-and-after chart that will 
illustrate the difference in the processing of a grant 
application between what happened before and what happened 
after the grant simplification. I would like to also mention 
that this chart that I give you was not just one program 
process, it was the process for 21 programs in HEW. What I am 
showing you was audited by the General Accounting Offices, this 
is not a PR piece.
    Mr. Horn. Without objection, the items that Mr. Ink has 
submitted will be put at this point in the record. If there is 
anything else you want to talk to on those records, we would be 
very grateful.
    [The information referred to follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Ink. The amount of effort, the number of people that 
were involved in the processing of grant applications in the 
Federal Government was often cut by between 50 and 95 percent. 
That meant the time of processing was cut by that amount. That 
meant that the local officials got a yes or no answer much, 
much quicker. Furthermore, they got a clearer answer. Because 
we found that when things were being processed in headquarters, 
going through all these offices, that you ended up with some 
kind of a compromise language in the response that was often 
ambiguous. And headquaters wanted a lot more information than 
the field, because the field was much more familiar with the 
problems and more familiar with the local leadership. So that 
reform was very successful for a time. But we no longer have it 
what happened?
    First of all, as the second Nixon term got underway there 
was tremendous pressure to politicize these field leadership 
positions. And the same thing happened with respect to the 
assistant secretaries in Washington. Those positions were also 
fragmented as they shifted from career to political positions. 
This started under Nixon's second term and continued under 
President Carter.
    So the credibility of the system dropped. The delegation of 
authority got confused as a number of the headquarters people 
found ways to undercut the delegations to the field. 
Consequently, the field was no longer in a position in some 
agencies to give the kinds of quick, clear answers they had 
given earlier. And there were a few other problems, too.
    The 10 regions also began to disappear. Some of the 
agencies decided that they could do better with a different 
configuration, and therefore shifted away from the 10 common 
regions. That got us moving back to where we were before, 
having to deal with different agencies in different States for 
a single project.
    Attention to the field structure has declined ever since 
1972. But attention accelerated during the last few years under 
reinventing government. What I call benign neglect became 
pretty complete. There are a few individual cases of individual 
programs that have been trying hard to be more responsive to 
local governments. But interagency field cooperation and the 
intergovernmental cooperation is gone. It is dead.
    Most of the reforms that we have seen, as I mentioned 
earlier, are from the standpoint of Washington, not from the 
local view. You saw that change when reinventing government 
came into town and HUD was reorganized. HUD needed 
reorganizing. The delegations in the field were terribly 
confused. There was a lot of concern about the politicizing of 
different parts of the department. So it was a department that 
had been in trouble for some time and needed a lot of change.
    But instead of designing the changes from the perspective 
of what is needed in local governments, it was designed 
primarily to help the assistant secretaries in Washington. So 
they not only abolished the regional offices, but resorted to 
an old-fashioned, out-of-date, stovepipe organization, which is 
where HUD is today.
    There has been no effort to begin to link up in any 
meaningful way the different departments in their response to 
local governments. Some people say we needed that linkage when 
we had a lot of categorical grants, but no longer. Last week 
however, the Secretary of HUD said, ``We have over 300 
categorical grants in HUD,'' so it seems to me that the 
categorical system must still be alive and well.
    I think there is, Mr. Chairman, a growing recognition, 
though not as well recognized as it should be, that we do need 
to give renewed attention to the field structure of the Federal 
Government, but we need to give it attention in light of how it 
can best serve the States and the local communities, not how it 
best serves the Federal Government in Washington. Not how the 
structure best serves the bureaus in Washington, but how does 
it serve the city manager and neighborhood leader or the mayor. 
That is what needs to be done.
    But I would also strongly caution against trying to make 
changes until we know exactly what the problems are from the 
perspective of local officials, from the perspective of these 
local neighborhoods. What we did when we set up a coordinated 
system in the beginning, was to work with both the public 
interest groups--we called them PIGS--public interest groups, 
and the individual mayors and city managers. We actually flow-
charted what was happening in the grant system. Because if you 
ask any official in any level of government what is happening, 
they cannot say because they are not in a position to see the 
whole picture. They are not in a position to see the totality 
of the red tape that grows up within our system. And once you 
see what that is, then you know precisely where the greatest 
delays are. You then have an opportunity not to just nibble at 
the problem, but to reform the system.
    So I would strongly urge that we do that now. We need to 
start from scratch. And this can be done quickly, finding out 
what the problems are, where the impediments are, how serious 
they are, and at what level.
    The bipartisan Intergovernmental Cooperation Act in 1968 
gave me an excellent legislative base on which to move forward 
with the new federalism. Today we do not have anything quite 
that useful, but I would think that the Government Performance 
and Results Act with innovation and imagination, can be very 
helpful to the Congress and to the OMB in moving ahead with the 
kind of analysis I was talking about, and toward determining 
needed improvements.
    As you know, the incoming Bush administration has, as one 
of its objectives, that of moving the Federal Government toward 
one that is, ``citizen-centered and not bureaucracy centered,'' 
and an intent to finally put the ``M'' in OMB. Now, of course, 
we have heard that before. We have heard it over and over 
before. And I have long urged, as I know the Chair has, that we 
move to a separate Office of Management, because OMB has always 
been dominated by the budget process. But I would also argue 
that I think Mitch Daniels and Sean O'Keefe know more about 
management than most leadership in OMB. They are determined to 
move ahead. And until we are successful in getting an Office of 
Management, I would urge
this committee to do everything you can to provide them with 
support and encouragement as they move forward to try to carry 
this out against pretty formidable odds.
    Mr. Chairman, I have tried to cover the highlights. I am 
ready to answer questions.
    [The prepared statement of Mr. Ink follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Horn. Let me try one out on you as to where those that 
are not in the field, but still in the bureacracy in 
Washington, is there any way to have a different type of 
management, or is it simply carrying out the Secretary's will, 
shall we say, or the President's will, and then they say, ``Do 
it to them,'' or is there a way that decisions can be changed 
based on actually what they find out is going on in a 
community? In other words, what do we really need? Do we really 
need any sort of regional structure?
    Mr. Ink. I think we probably do, but we do not know for 
sure until this analysis is made that I am talking about. It is 
very difficult to have in individual field offices the kind of 
skills and expertise that you can gather in a regional office. 
On the other hand, it is also very difficult in Washington to 
handle the operational problems that you can handle in a 
regional office. Not only is it difficult, but the more 
operations you pull into Washington, the more that tends to 
squeeze out the policy role of headquarters, the more it 
squeezes out the monitoring and oversight role that is very 
important for a headquarters office. And the more operational 
responsibility in Washington, not only does that limit the 
amount of time and effort they can devote to oversight, but it 
also detracts from their objectivity, because they are 
oversighting what they have already been a party to developing.
    I think we would not want to rebuild what I built back in 
1969. I am sure it would look very different today. I am sure 
it would be much more streamlined. I cannot imagine needing as 
many people. The e-government developments would enable us to 
do things that we could not do then. But I would caution 
against people falling into a trap of thinking that electronic 
advances can fully substitute for human judgment. And human 
judgment is best and most effective when it is out in the field 
where it knows the people, where it knows the conditions.
    Mr. Horn. Of course, when you have got regional offices in 
San Francisco, you have got tremendous costs that you would not 
have in other parts of the country. And how do we deal with 
that? Should we have a lot of regional offices in Barstow and 
Needles, CA?
    Mr. Ink. Well, when we set up the regional offices around 
the country, we pulled in people that had been trying to staff 
up some of the local offices, and not very successfully in many 
instances. So what we did was draw some of those people into 
the regional offices. We were successful in doing that without 
increasing the overall staff. And I would think that could be 
done today.
    Mr. Horn. Well, you have heard some of the things Mr. Ink 
has said. Do any of you have a response on that? Mr. Chistolini 
and then Mr. Henton, Mr. Stoker.
    Mr. Henton. I'd like to make a comment on I think what Mr. 
Ink said is so valuable, not only because it gives us a 
historical perspective, but I think it gives us a way of 
looking at where we need to go. And the historical perspective 
that was being discussed is very intriguing. If you go back to 
that early experience that he described with HUD trying to 
bring together their programs at the regional level working 
with local officials, and a phrase that I actually was not 
aware of, the notion of metropolitan expediters is exactly what 
my testimony was about. The idea of creating a way where local 
communities can come together and identify their problems, and 
then bring the Federal agencies in and try to expedite some of 
these decisions. Where the physical location of the regional 
office is probably less important than having Federal people as 
part of the team. And I thought that was very, very 
interesting, and I was a little bit aware of that history. So I 
think there is a lot of interesting things to be looked at 
here.
    The other thing is, I just want to comment, the first 
Federal official that I ever worked for was Elliott Richardson 
when he was Secretary of HEW. And one of his biggest concerns 
was categorical programs. At that time, in 1970, 1971, there 
were 1,000 categorical programs across the Federal agencies, 
and about 300 of them in HEW.
    He introduced an idea which was not implemented, but I 
still think it is the best idea, which is called the Allied 
Services Act, of trying to connect these categorical programs 
so that they are more responsive to local needs. But he 
realized how hard it was, and he always use to comment that he 
thought the Federal Government had a hardening of the 
categories. [Laughter.]
    So there is a tendency here, and again I just want to 
reinforce what Mr. Ink said, I think it is absolutely 
essential. But when I was in school I studied with a public 
administration professor named James Fessler who wrote a famous 
article about area and function. He basically made the point 
that there is a cycle effect here. That Federal agencies will 
organize by function, realizing that is not responsive to local 
need. Then they will reorganize by area. Then they realize that 
they cannot deal with accountability, and then they reorganize 
back. This article was written in 1958, and it predicts exactly 
the phenomenon that we are seeing here, which is this sort of 
swing back and forth, when in fact you need both, area and 
function. I really think that is an opportunity, with 
information technology, to rethink how we do things. But I just 
want to reinforce what Mr. Ink said. The notion of a bottom-up 
strategy, figuring out what the needs are, and organizing to 
the needs of local communities is something that I think could 
be done. There are communities all over this country that would 
love to participate in that. So I just want to reinforce that.
    Mr. Horn. Let me look at another angle here. Many of the 
corporations that survived through the recession from 1988 on 
up to now, many of them found that when they cut out a lot of 
middle management people, the corporation focussed better on 
helping the customers. Of course, we are talking about how do 
you help the taxpayers that pay the bills of the government. 
And I just wonder, in an age where you have got communication 
that just can overwhelm people, but certainly has something 
where they can communicate to a lot of people that have not 
been communicated with, it seems to me that we ought to take a 
look at do we need more, do we need less in Washington, or in 
the fields where the real problems are. So what do you feel?
    Mr. Henton. Well, Mr. Chairman, if I could just comment on 
that. I think that is a very important lesson for us, and the 
private sector lesson is a very good one. In the early 1990's 
when we had a slowdown, what it led to was a way of thinking 
about businesses, which led to what would now be commonly 
called downsizing. I believe that the results of that, now 
documented quite seriously in the business literature, was that 
many of those downsizing efforts were a mistake. What you 
really want to do is streamline your activities around 
strategic intent, and you want to make sure that you build that 
across teams where you make the customer the focus. And the 
most successful agencies might be very streamlined, but they 
are aimed at the customer. So the absolute downsizing itself 
actually resulted in a fascinating phrase which emerged in the 
late 1990's which was called organizational anorexia, where 
there were not enough people in the agency to actually perform 
the services.
    So I do think that just simply downsizing in itself is not 
the answer. The answer is customer focus. And if you can get 
the Federal Government to use information technologies, 
organizational strategies, and anything that we can to put the 
customer in the driver's seat, I think you will have happier 
taxpayers.
    Mr. Ink. Mr. Chairman----
    Mr. Horn. Mr. Stoker, go ahead.
    Mr. Stoker. Well, thank you, Mr. Chairman. The one thing 
that I think is important, as we look at this whole issue, is 
the function of government. And if you look, in the last 20 
years, one of the most expansive areas of the Federal 
Government is--and as I mentioned in my comments, the two 
focuses that I had the most dealings with were regulatory 
issues, or where social services were provided.
    I think where government at the Federal level has changed 
substantially and significantly over the last 20 years is in 
that whole area of the regulatory framework. When you look at 
clean air issues, clean water issues, Super Fund, CERCLA, 
Wetlands Act, Endangered Species Act, if you look at how the 
Federal Government was, say, interrelating with my constituents 
in Santa Barbara County 25 years ago in regards to those 
issues, it was basically non-existent in many cases. Clean 
water acts and clean air acts weren't even written until the 
early 1970's; the Endangered Species Act and the Wetlands Act, 
and how they are being enforced, especially in the west and out 
here in California.
    And so it is, I think, imperative to look at the function 
of government you are dealing with. As you talk about more or 
less people in the field, and this gets back to my concerns 
that I mentioned in my opening statement, what I saw, as a 
county supervisor from Santa Barbara County, what I dealt with 
as chair of the Ag Labor Relations Board, and certainly as an 
attorney in the private sector representing people who were the 
subject matter of compliance issues, getting all the 
stakeholders in the room to solve a problem, whether we are 
dealing with the Wetlands Act, the Army Corps of Engineers on 
the Federal side, Fish and Game on the State side, the county 
had our own people that would be involved in terms of 
environmental issues, getting all those people in that same 
room was a very, very difficult task. Which is why, as I 
mentioned in my comments, typically we would either--one of two 
things would happen. Frankly, either we would go to a good 
representative like you who had a lot of clout that would force 
those people from the Federal side to come into our district 
and sit down at the table, and go to the State counterpart to 
do the same thing with the State representative, or we would be 
off going to Sacramento or we would be off going to Washington.
    I think the more you get on compliance, regulatory issues, 
and more and more that is a bigger issue of where the Federal 
Government is involved in our lives and involved with local 
government, I would bet you that in terms of problems that need 
to be solved, as we sit here today in terms of Santa Barbara 
County, 70 percent of the Federal issues that need to be solved 
would deal with regulatory and compliance issues. Which is why 
it is so important to have, whether you create a system that 
requires in those regions that they know--there are a lot of 
turf battles going on here as well, you know. The Federal side 
does not want to have to go to the State offices over in 
Sacramento; the State folks do not come over here unless they 
have to come over here.
    And it happens usually at the very end of a system either 
breaking down, or where finally a resolution has come into 
play, that all of those stakeholders meet in that room and have 
that final sign off. But what you have to do to go through the 
mechanics to get those people there, where the ideal situation 
would have been actually in the field, so they understand it 
better and are dealing with the stakeholders better; I think 
that is the focus of where we have to be in regards to having 
that intergovernmental relationship, that hands-on is going to 
make a world of difference.
    Mr. Horn. Any other comments on that aspect? Mr. Ink, you 
have another point to make?
    Mr. Ink. Yes. Two things. One, again you do not really know 
whether you want to reinvigorate certain types of streamlined 
regional offices until an analysis is made. I think you 
probably do, but I could be wrong when you see what the facts 
are, see what the local people, local leaders say, and you see 
exactly where the delays are, where the confusion exists. But 
it would not make sense to do that at all unless there was a 
restoration of authority so those people could act. You do not 
want to set up a regional office to be just another layer in 
the government.
    Second, there has to be something which is totally non-
existent today, there has to be a restoration of some 
management capacity in OMB to monitor the system, to make sure 
that whatever it is, whatever the field office system is, it 
functions and it moves, and it can expedite rather than slow 
down the process. That is essential.
    Mr. Horn. Yeah. Now, we have got an explosion of assistant 
secretaries, assistant deputy secretaries, deputy assistant 
secretaries throughout the Federal Government. Now, how do we 
get a clarification of policies in some sensible way, when all 
of these bureaucracies have built up since President 
Eisenhower's time? And that bothers me.
    Because I think of the case where the district engineer of 
the Corps of Engineers in Chicago, they had to go through three 
district engineers, and there are two or three, never to solve 
the problem, never could get the right people in the room, all 
the rest of it, and meanwhile millions of dollars are being 
eaten up by people either in floods that happened to them 
because they could not get the thing moving, or if it is a 
corporation, if they are losing money they could put on helping 
lower this bill or that bill.
    And so what would you do in terms of what kind of an 
internal agency operation in getting a policy focused on the 
people, and then you can put it out there, and they might say, 
``Well, gee, that does not make any sense.'' Well, then you 
deal with that. And it worries me that we have to go through 
three district engineers before something finally happened in 
Chicago. That is 6 years gone.
    Mr. Ink. Mr. Chairman, I have never found that to be a very 
difficult problem. What you have to do is find out what the 
facts are, you have to trace through the trail of what is 
happening. Once you get that down in black and white, then it 
is much, much easier to see that you have more layers, more 
checkpoints than you need.
    In domestic agencies, the one dimension that has not been 
looked at except a little bit by Paul Light, is while we have 
been cutting back on the career levels, we have not on the 
political levels. So the number of political appointees is 
alive and well.
    We found, in interviewing this past year a number of the 
top Presidential appointees from past administrations--
including three chiefs of staff and other very well-known 
Presidential appointees--a growing recognition that there is a 
mismatch. Now, this does not apply to the Corps of Engineers, 
but it applies to a lot of other places. A mismatch between the 
capacity of the Presidential personnel office to screen 
political appointees, and the large number of political 
appointees, so that once you get below I would say the sub-
cabinet level, there is virtually no time given, no time 
available for the White House to give to the qualifications of 
those people.
    Second, the low level political appointees do not know the 
President. And while they support the President in an election, 
and they want to support the President, they do not really have 
a very good feel for his objectives, once you get down to 
specifics. And worst of all, a large number of those lower-
level political appointees don't owe their principal allegiance 
to the President, or they owe it to a special interest group or 
some major political figure that got them the job.
    So on a specific issue in an area in which they owe their 
government appointment, if there is a difference between the 
President and their patron who got them the job, their first 
loyalty, in most cases, is going to be to the patron, not the 
President. And that means that you do not have accountability 
to the public or your elected President.
    So you have, in some of the places like the Corps of 
Engineers, an organization that has become somewhat fossilized 
over the years. I would argue that they have extremely 
competent people in the Corps of Engineers, but there is too 
much overhead. And second, in many of the non-defense agencies 
there are too many political appointees, and it is hard to get 
the President's word down clearly to the career people. It gets 
diffused, and it takes time, it takes effort, and excess 
political appointees cost taxpayer money.
    Mr. Horn. Well, I think you are right on that. But I think 
we have got to tighten up, as the last administration did, in 
some agencies, and cut out some of the people that are just 
initialing things and not really creating things or focusing 
things.
    Mr. Ink. The problem with the last administration was not 
that it cut out people, but it did not know what it was cutting 
out. They did not look at what the jobs were, they did not look 
at any flow charts and so forth, they just cut people. And we 
found that in some instances they cut out the wrong people. And 
they sometimes cut out the people you needed for leadership. We 
are really talking about governance, which is beyond 
government, because to make things happen and to respond to 
these problems in the community, we are also talking about non-
government organizations that play a crucial role in making 
things happen. They need to be energized, they need to be 
brought into the picture, and we are not doing that well. And 
the cutting that was done in the last administration did not 
take that broader perception into account.
    Mr. Horn. Well, I have seen 25, 30 people added to the 
Secretary's office by very young assistants, and President 
Eisenhower had one or two with a cabinet member. And I have not 
seen anything improved in decisionmaking when we have all of 
these people running around and sort of picking up--or the ones 
in the White House often picking up the phone and saying, ``Hi, 
Mom, you know. Here I am, here in the White House now.'' And 
there are too many people in the White House operation. There 
are around 1,600 people in those various things. Now, you have 
spent a lot of time with them. Maybe you disagree on that. But 
I think there are too many people clogging up the whole 
decisionmaking process.
    Mr. Ink. Yes. I would say there are two basic dimensions to 
that problem. One is the one that you just talked about, which 
is a very real problem.
    And there is another problem which is really more difficult 
to deal with. And that is, as the Federal Government has become 
more fragmented, it is less and less possible for a cabinet 
member to formulate policy and to coordinate the programs 
because they are spread over a number of different departments 
and agencies. That means that minor problems are forced into 
the White House, even if the White House does not want them. 
This fragmentation is pushing more and more decisionmaking into 
the White House, and it is pushing it into the White House 
where decisions are being made by individuals who are bright, 
but have not nearly the expertise in specific areas that you 
can draw upon in the departments.
    It also means a loss of sense of ownership and public 
accountability, on the part of the cabinet members. The White 
House staff does not have the level of accountability that a 
cabinet member does, either to Congress or to the public.
    Mr. Horn. Well, one of the things that you have is that as 
a cabinet member gets more and more knowledgeable about the 
agency over which he is presiding, that means that he does not 
want to take the people the White House personnel think are 
just wonderful for that particular agency, and they often find 
ways to say, ``I do not want that person,'' and they want their 
own people. In a sense, that pulls them away from the President 
in many ways.
    And then when you have got people within the bureaucracy 
that have been there between administrations, you have got the 
problem that they are just afraid to make a tough decision 
because it might be on page 1 of the Washington Post.
    Mr. Ink. I do not think it pulls it away from the President 
as much as most people think. It is that process that generates 
a lot of low-level political appointees who are really not 
accountable to the President.
    I headed an agency for President Reagan and had several 
very good political appointees. I also had some political 
appointees who came over on the White House staff that had 
never met the President. Their loyalty was not as much to the 
President as it was to the special interest groups that got 
them their job. So I think it is a healthy thing for cabinet 
members to protest when the White House staff is trying to pawn 
off someone whose only qualification was that they were 
effective advance men or they contributed a lot of money. There 
has to be a balance that includes both competence and loyalty 
to the President. We do not have that balance at the lower 
level, in my judgment.
    Mr. Horn. Well, I think there is probably a lot to what you 
have said. Anybody have any other things they would like to get 
out? Mr. Henton.
    Mr. Henton. Well, I think that again Mr. Ink makes a couple 
of very interesting suggestions, and I just want to follow-up 
on them. Earlier he talked about this notion of before you 
really understand what the Federal regional structure should 
be, you need to really sort of look at it bottom-up in talking 
to local officials and people in the field. And I think that is 
absolutely correct. To think about it differently today than 
maybe it was when it was designed, you know, in the original 
time period in the early 1970's.
    The other thing that I wanted to just pick up on, and I 
will be happy to submit information on this, that I think the 
challenge today--and I hope Mr. Ink agrees with me--in 1970 the 
New federalism was an attempt, as I understand it, to try to 
sort out the roles of government and to push some of the 
responsibility back to State and local governments.
    Mr. Ink. Right.
    Mr. Henton. I think we are in a different mode now, and I 
do believe that the notion of the New Regionalism, the NAPA, 
the National Academy of Public Administration, which Mr. Ink is 
a part of, did a report a few years ago which is an excellent 
report on regions and how they are evolving, and the notion of 
civil-oriented.
    Some of the organizations that we work with are public-
private business organizations. This is a very helpful thing, 
it seems to me. And if the Federal Government could think about 
how to organize field offices not just in terms of how it 
relates to units of government, but how it relates to whole 
regions----
    Mr. Ink. That is right.
    Mr. Henton [continuing]. What a wonderful opportunity.
    Mr. Ink. That is right. That is the difference between 
government and governance.
    Mr. Henton. Right. And I am sure that you have probably 
seen that report. But the NAPA report was based on a major 
survey of what was happening around the country. I have some 
material I brought with me that--this group, the Alliance of 
Regional Stewardship involves 25 regions, and I have worked 
with Bob O'Neal, who is the head of NAPA on this, and I would 
be happy to submit this for the record, because----
    Mr. Horn. I would love for that to be in the record. And 
without objection, it will be in the record.
    Mr. Henton. I think it is a very hopeful sign that there is 
this sort of bottom-up sort of intensity. The question is how 
does the Federal Government, you know, relate to that new 
phenomenon. But there is a lot that could be done there, maybe 
on an experimental basis, trying out things.
    Mr. Ink. I agree.
    Mr. Horn. Well, I am glad we see some consensus on that. 
Any further comments?
    If not, we have here the list on those that we would thank 
for all their work, besides our presenters. And, let us see 
here, we have a lot of people helping us, so I want to--here it 
is. Russell George, the staff director, chief counsel; Diane 
Guensberg, professional staff member and on loan from the 
General Accounting Office; Bonnie Heald, director of 
communications; Earl Pierce, professional staff; Matthew Ebert, 
policy advisor; Grant Newman, assistant to the committee; and 
Brian Hom, the intern.
    We want to thank Representative Pelosi's staff for helping 
us through this building, and the very fine people from GSA, 
Catherine Dodd and Raymond Mapa, the Senior Property Manager, 
and his staff; Patrick Vasco, Property Manager, the Golden Gate 
field office. And then Warren Sitterly, the Deputy Property 
Manager, Court of Appeals. We thank Bill Warren, the court 
reporter today.
    We are going to recess now--well, he had better hurry. So, 
OK. We have a little problem here where members are around the 
State of California, but they were not in San Francisco. So 
bear with me, and we will just recess for about 5 minutes, and 
then we will recess. So if you have any bright ideas during 
this 5 minutes, let me know.
    [Recess.]
    Mr. Horn. We are delighted to have with us the chairman of 
the full Committee on Government Reform, Mr. Burton, the 
gentleman from Indiana, and also Mr. Ose, who is a Californian. 
A number of hearings will be held in his area, and he, with his 
new Subcommittee on Regulatory Affairs, are delighted to have 
him. He is an outstanding person, and he was on this committee 
last year, and he is an A-plus in terms of doing his job and 
all of that.
    And we appreciate Chairman Burton letting us, as 
subcommittee chairmen, go ahead and get things done. So today 
we have had, Mr. Chairman, a very interesting group of 
witnesses. We are very interested in how effective regional 
offices are, what are we going to do in an age of 
telecommuting, and also communicating, and what we can do to 
help get messages out, and get information to the people that 
way. But we also want decisions that can help people, and not 
sit on some bureau in Washington. So, in essence, we have had a 
difference of opinion here in a number of ways which have been 
very helpful, and it will be a good written record. So if you 
would like to say anything or ask some questions, why, we would 
be glad.
    Mr. Burton. Well, I am glad you are having this hearing, 
Steve. And all I would just like to say is that I am sorry we 
are a little bit late. We ran into some traffic getting down 
here. But I am here to listen. You are the chairman of the 
subcommittee. I would like to find out if the location of the 
various offices that are performing these functions here in the 
State of California are located in areas where they are most 
effective. And just anxious to hear what the various witnesses 
have to say. Maybe they can answer some questions, or if they 
have already covered some of this, maybe they could refresh our 
memory by maybe re-covering a little bit of the ground.
    Mr. Horn. Well, we have covered a lot of it. But why do we 
not just give a summary for Chairman Burton. Mr. Chistolini, 
the acting Commissioner for Public Buildings, might start it 
off, and then Mr. Henton.
    Mr. Burton. You do not have to restate the whole thing, Mr. 
Chairman.
    Mr. Horn. But just sum it up as you see it.
    Mr. Burton. Yeah, let me hear it.
    Mr. Chistolini. Well, Mr. Burton--Chairman Burton, we do 
provide a lot of space in the San Francisco-Oakland area, more 
than 3 million square feet of government owned space and 1.6 
million square feet of leased space. One of the things I would 
add, in terms of listening to the other participants here, is 
that a lot of our locations are really site-specific. For 
instance, a lot of Social Security offices have to be where the 
people are, where they can serve the needs. Here in San 
Francisco they have two: one in an area of Chinatown meets a 
specific need, and only one other for all of the city on Market 
Street.
    Agencies are trying to use more electronics so they can be 
more responsive to citizens. As agencies get better in doing 
that it creates problems for us in being able to meet their 
needs. We are finding more agencies are trying to get out of 
cities, get outside of the areas, and get where their 
constituents are.
    But there are also other agencies that, based on their 
organizational structures, they report back to Washington or, 
as Mr. Ink said, what kind of delegations of responsibilities 
they have, there are probably as many organizational structures 
as there are agencies. That probably impacts the delivery of 
services, also, as people go through and agencies go through 
organizational cycles.
    Mr. Burton. Can I ask one question?
    Mr. Horn. Sure.
    Mr. Burton. In your opinion, are the agencies--are there 
any agencies that are located here in San Francisco that could 
be more effective or more efficient if they were located 
someplace else in California?
    Mr. Chistolini. Well, there is--agencies are making a lot 
of--again, they will certainly get a lot of direction from 
their national office. But agencies are making decisions based 
on cost. In my opening statement I mentioned that in the past 
year at least three agencies moved out of San Francisco based 
on cost. They moved to the Oakland area. National Park Service, 
where they could be closer to some of their other elements; the 
Customs Service; and the Federal Emergency Management 
Administration all moved to Oakland. And the cost of space 
which leads to the cost of government is a very important 
factor for many agencies.
    Mr. Ose. May I followup on that, Mr. Chairman?
    Mr. Horn. Absolutely.
    Mr. Ose. Mr. Chistolini, on these agencies that moved, what 
was the factor, if you will, in terms of the differences 
between costs? For instance, if San Francisco was 100, Oakland 
was 50, 80?
    Mr. Chistolini. Probably 60 to 65, if that is the--if the 
baseline is 100, Oakland is 30, 35 percent less expensive in 
terms of space.
    Mr. Ose. In terms of the agencies themselves correlating 
the, for instance, National Park Service. With all due respect, 
I do not see a lot of national parks in the Bay Area, 
specifically. I do see a lot of national parks, for instance, 
up in the Sierra Nevadas or north in the Cascades. If the 
concept got refined to the point where the agency was located 
in even a smaller city than say Oakland--actually I guess 
Oakland is bigger than San Francisco now, is it not, 
population-wise?
    Mr. Chistolini. In population.
    Mr. Ose. If you keep ratcheting that down in terms of the 
size of the city in which the agency is located, do you 
continue to receive comparable reductions in cost?
    Mr. Chistolini. Well, you would. I think what happens is 
agencies then have to determine what their structure is. Simply 
putting additional offices in other cities may give you some 
efficiencies of closeness to the citizen or close to the 
customer. It would depend on the number of layers they have. 
Let us say if someone is in Redding, CA, who does that office 
report to? Does it eventually work its way back to a regional 
city? I guess the real trick is: Can you eliminate some of that 
middle management and still deliver good service?
    Mr. Ose. That is what I am trying to get at, is that some 
of the comments in here indicate that with technology today we 
may not need as many branch offices or regional offices. That 
much of the interaction between managers and field staff can be 
handled electronically, if you will. So I just have to 
question--clearly there is a savings moving, in this example, 
from San Francisco to Oakland. But is that the end-all or the 
be-all of what we are looking for. I do not believe that the 
testimony here is that it is; that we can make additional 
savings if we leverage the technology that is available.
    Mr. Chistolini. Based on what I have seen in terms of being 
able to leverage technology, I am sure that agencies will be 
able to distribute their people out further and be more 
responsive, as well as being more cost effective.
    Mr. Ose. Mr. Henton, would you agree with that?
    Mr. Henton. Well, I think that we have been talking today 
about the balance between information technology and face-to-
face. I think it is clear that government can use information 
technologies to accomplish a lot in terms of information 
sharing, dissemination, being more effective. But I think the 
other point is that when you are trying to get people together 
to solve problems that revolve around complex issues, you still 
need a certain amount of contact face-to-face. The regional 
offices can play an important role in maintaining that sort of 
face-to-face.
    Now, in terms of the cost, there are all kinds of ways to 
organize the facilities. But in the end, I think one of the 
points that we have been making is that there needs to be a 
Federal presence at the local level so you can have more of 
this interaction. You cannot do everything over the Internet.
    Mr. Ose. Mr. Ink, one of your points is that, when it comes 
to the field offices, that those have suffered adversely as 
management and staff has flowed to regional offices. Am I 
correct in understanding that?
    Mr. Ink. My concern is that there is what I call benign 
neglect with respect to the field structure. For the last 
several decades we have paid almost no attention to how the 
different field offices interact or fail to interact with each 
other, or how they interact or fail to interact with State and 
local governments and with non-government organizations and 
with business.
    I think that the few efforts we have directed toward the 
field over the last few years have been from the perspective of 
Washington bureaus, not from the perspective of the people they 
are supposed to serve.
    Mr. Horn. I might add, for Mr. Ose's benefit, that Mr. 
Stoker has a different view in terms of regional offices being 
closer to State capitals. So you might expand on that.
    Mr. Stoker. Well, I tried to make a case, Congressman Ose, 
that if you had to do it all over today, regional offices, at 
least in Region nine, should be in your hometown of Sacramento 
for all practical purposes.
    Now, I am looking at it more from an intrastate 
perspective. But clearly if you are looking at it from within 
California, from my background both as a land use attorney, and 
then more to the point, as a member of a county board of 
supervisors, and also serving as chairman, on the State side, 
of the Agricultural Labor Relations Board. I cannot tell you, 
back to the county situation, how many times I got on the plane 
to go to Sacramento to deal with Fish and Game, and then came 
over here to deal with the Army Corps, or how many times I was 
at Cal EPA in Sacramento, and at fed EPA over here in Region 
nine.
    I think, in one of my earlier comments, the greatest 
expansion of federalism in the last 20 years has been in the 
regulatory compliance issue. If you look at when these regions 
were set up and the framework for setting it up, I mean, we did 
not even have clean water acts and clean air acts, and we did 
not have Super Fund, we did not have CERCLA, the wetlands act. 
The Army Corps of Engineers' function was completely different 
20 years ago than what their function is today, in terms of the 
biologists and the environmental compliance, fish and wildlife. 
And where I see a real breakdown in terms of the 
intergovernmental relations is starting at that local level. It 
is not just always the private property owner. I could give you 
probably five or six situations in which the county of Santa 
Barbara--I could spend all day telling you about how long it 
took us to try to clear some wetlands on the Santa Ynez so that 
the city of Lompoc would be protected from floods, and what we 
had to do with Fish and Game again in Sacramento, and the Army 
Corps of Engineers, in regards to a 404 permit. And it was 
constantly--there was very little interaction together.
    Now, technology should definitely be used and can be used 
where it is more of an information aspect. But when you are 
dealing with compliance issues and adversarial situations, of 
which there is turf out there, Fish and Game folks are--you 
know, I mean, you name it on the State side, you go to them in 
Sacramento, and then you come to the folks over here in San 
Francisco or Oakland and that is where, from my intrastate 
perspective, I guess, where I would start this, if we did not 
have a region, if Mr. Ink today was starting over in terms of 
saying how would you set up a regional office, I am not so sure 
San Francisco and the Bay Area would become the region. 
Certainly for serving California needs it would not be, and I 
am not so sure that any other State that is a part of that 
region would be negatively impacted by say the region being in 
the Sacramento area. Back to national parks, where you are 
dealing with many of those issues as well.
    I think whatever happens, at a minimum, wherever the region 
is going to stay, there needs to be a definite direction from 
the Federal side to be more field-oriented, to go to where the 
problem is, especially if you are dealing in the regulatory 
compliance area. I do not see that going away. I have done all 
of my--I have done my bit to try to swing that pendulum, and 
hopefully with this new administration and the issue of 
property rights, the pendulum will swing. But that is an area 
where there is so much interaction between these levels of 
government that never took place 25 and 30 years ago.
    Mr. Ose. Chairman Horn, you remember we were at Moffett 
Field about a year ago.
    Mr. Horn. Right.
    Mr. Ose. And we brought in the folks from the city of San 
Jose, I believe. And we asked--what they were dealing with is 
this overwhelming crush of building permit applications, 
primarily driven by the high-tech industry. What we asked them 
was, how do you deal with expediting these permits. Because you 
just do not have a month of Sundays to process these things. 
And what they did was--recollection serves, and Mr. George can 
correct me if I am wrong or right, whichever--is that they 
ended up taking people from different agencies and putting them 
in a single location where applicants could go and get 
everything signed off.
    Mr. Horn. One-stop business.
    Mr. Ose. One stop. And then, I have found since then, Mr. 
Chairman, that L.A. County does that now, some of the smaller 
cities in Sacramento County have moved in that direction. I 
wonder whether or not it is possible to take, if you will, that 
bottom-up idea from local government into some of these Federal 
agencies and get them integrated in this way.
    Mr. Stoker. Congressman Ose, in Santa Barbara County in 
1991--and I think we were one of the first counties to do the 
one-stop shop where we put--there was a representative from the 
fire department--in terms of fire signing off; the public works 
department for roads, grading issues; the environmental 
compliance. You had all those at that one counter, which made a 
world of difference. I mean, if you take that as a model for at 
local government where you had the different bureaucracies 
competing at that local level that cost money, created delays, 
and you tried to take that, the only difference is, is now you 
are going to have to interrelate between three levels of 
government and get them to coordinate. But that ultimately is 
the goal.
    If you accomplish that goal, you are going to save time, 
you are going to save cost, and in a lot of cases you are going 
to solve problems that are never solved because they are just 
out in an adversarial way with competing jurisdictions that 
often have concurrent jurisdiction.
    Mr. Ink. We have done that, but what we did in the past is 
gone today. What capacity we had was never the capacity we 
needed, and has now totally disappeared.
    Mr. Burton. Can I ask one?
    Mr. Horn. Sure.
    Mr. Burton. Thank you, Mr. Chairman. At the State level, 
are they trying to coordinate or consolidate agencies so you 
have that one-stop shopping in certain locales? And if they do 
or if they have or have not, is there a blueprint that is being 
worked on by some agency or group of agencies to try to create 
this one-stop operation so people like yourself do not have to 
fly all over the place to get things done? And if that is the 
case--this is a three-part question--if that is the case, if 
there is some plan or if it is already in effect to do that, 
should certain Federal agencies be relocated where these 
consolidated agencies are so that you can have not only one-
stop shopping, so to speak for the State, but the Federal as 
well?
    In Indiana, where I am from, we have some problems like 
that because of the Corps of Engineers is down in Louisville 
and people have to go back and forth, and you run into some 
real problems because of the time. I can imagine California is 
much worse. So it seems to me if you have some kind of 
consolidated program here and, you know, have it all worked out 
in one area for one-stop shopping and you have got the Federal 
agency over here, you still have that problem. So you 
understand where I am going. Are there Federal agencies that 
should be relocated, and have you already consolidated in one 
spot certain agencies where they can get this stuff done in one 
stop?
    Mr. Stoker. Chairman Burton, essentially at the State level 
the answer is no. You did have some consolidation.
    Mr. Burton. Is there a coordination program in process? Are 
they looking at trying to coordinate to put it in one spot?
    Mr. Stoker. The only thing that did happen in the Wilson 
administration is, through Cal EPA they brought several 
departments, for instance, Department of Pesticides and 
Regulations used to be in the Ag. Department. And because that 
had an environmental overture to it, they moved that department 
back into Cal EPA, and they moved other environmental 
departments that were similar like that back into Cal EPA, so 
that there would be one chain of command. That is about the 
extent at the California level in terms of that coordination 
and collaboration. If you take line item, you are going to--if 
it is a pesticide issue, you have a department that is going to 
be basically dealing--that deals with pesticides; if it is--you 
know, your fish and game have their area of responsibilities. 
And there is no one collaborating between those State 
functions.
    But to be real candid with you, Chairman Burton, what I saw 
at least as the major problem was not the inter-coordination 
between the State side within, because there is always going to 
be someone that has the primary jurisdiction, and the rest of 
the State is going to take the lead on that. And so as you deal 
with whoever has the primary jurisdiction and you are working 
out that problem, you can work it out.
    The problem was when you have--especially in these areas 
where there are regulatory issues involved and there is 
concurrent jurisdiction, is you would have Fish and Game, and 
often in many cases, saying yes, you should be able to clear 
that wetlands for whatever reason and Army Corps of Engineers 
saying no, we are not going to give you a 404 permit, or vice-
versa. I have had it both--you know, just the opposite where 
the Army Corps is saying yes, and Fish and Game is saying no. 
And when you deal with water issues, air quality issues, where 
you again get into this concurrent jurisdiction, and that is 
where, back to your final question, I really, truly believe--
now, I am putting on a bias of intrastate here, just from the 
perspective of the State of California, if you are looking at 
it from a microcosm of the State of California, I cannot think 
of a situation where you are dealing with a Federal agency that 
is dealing with either regulatory issues or providing federally 
mandated social services, why that office would not be in the 
capital, in Sacramento, where the headquarters for the State is 
located.
    Mr. Burton. So what you are saying is that----
    Mr. Stoker. And the rents are much--I can tell you this, 
are substantially reduced, as Congressman Ose can attest to.
    Mr. Burton. So you are saying that the major agencies 
should be located in the State capital, and not in regional 
offices around the State?
    Mr. Stoker. Well, their regional office should be 
potentially wherever they choose the State to--wherever for 
that region, like in our case, where the region was chosen as 
the Bay Area. I do not know, once they chose California as 
going to house one of those regional offices, why you would not 
say, first and foremost, the presumption should be the region 
in that State, then, should be the State capital.
    Mr. Burton. I see.
    Mr. Stoker. Because at least for interfacing with that 
State, that is where all the center of action is going to be. 
And then when you have a problem, I mean, assuming government 
is never going to get responsive enough to be user friendly to 
come to the field. If it comes to the field, if it comes down 
to where the problem is, say in Santa Barbara County, that 
would be wonderful.
    But if that is not going to happen, at least when I have to 
go somewhere to deal with a problem, I can put both 
stakeholders in the same room at the same location. And then, 
often if these two sides are hearing each other, they can see 
what the problems are, and that helps facilitate the 
resolution. And that is where the real breakdown is right now, 
in my opinion.
    Mr. Horn. I might add that I had mentioned, before you came 
in, about the case where three different colonels in Chicago 
had the district engineer role where they make substantial 
judgments, and they can overrule some of the environmental 
ones. They often do not do it. But that went through the case 
in Chicago through three different administrations and nothing 
changed. And that is just, as I mentioned before you came in, 
that the idea of going 6 years, and meanwhile what the money 
cost is going through in terms of either development or trying 
to save the wetlands or whatever it is. And if you have got 
another problem that, in the case of California, if you put it 
against the map on the East Coast, it stretches from Boston to 
Savannah, GA. And then when you look at, well, what cities are 
major cities in a State, and in the case of Los Angeles County 
is 10 million people; San Francisco County is about a half a 
million, and a little more. And we need to get the services 
where the people are.
    Now, granted, you can have--we were talking about 
teleconferences and all that. But it seems to me you need to 
look at--well, let us take EPA. EPA, under the State, was more 
progressive than the Federal Government EPA. And I happen to 
sit in--and I still do--the Environmental Subcommittee of 
Transportation. And I asked them under oath, about 6, 7 years 
ago, that why can you people not get together with the Federal 
Government, and they said well, we are glad to, and they have 
signed off on this. And this is where business people in this 
area, they developed the whole code to be on electronic 
activity and not just paper filling up something like this 
room. And they promised to do it, and Mrs. Browner, I have put 
it to her, and nothing ever happened, you know. They just sat 
in Washington.
    Mr. Burton. Well, I am just thinking out loud. If we knew 
where the weaknesses were and the breakdown was, not only here 
in California but across the country, with the new 
administration it seems that collectively you, as subcommittee 
chairman, could put in writing where the problems are and make 
suggestions, and we could go to the new cabinet officer for 
that agency and say this is something we think should be done, 
and perhaps we could get some changes made.
    Mr. Horn. I agree. And in our report to you in the full 
committee, I think we are going to lay out some of those 
differences.
    Mr. Burton. Well, when we get that, I think that should be 
forwarded, along with a letter from all of us, directly to the 
new cabinet head for that agency.
    Mr. Horn. Yeah. Any other questions, gentlemen?
    Mr. Burton. Not from me.
    Mr. Horn. If not, we are in recess, and we will have two or 
three more hearings in this State, and we will then get some 
more good ideas. And I want to thank each one of you. You have 
really done a terrific job, and we thank you. And if you get 
some thoughts coming home in the car or whatever, just send us 
a note on it and it will be part of the hearing record so we 
could--and a lot of you have suggested some pieces of this or 
that, that really give us a further very fine record in how we 
deal with people out in the masses, wherever.
    Mr. Ose. Mr. Chairman----
    Mr. Horn. Yeah.
    Mr. Ose [continuing]. You are going to leave the record 
open for----
    Mr. Horn. The record is open for 7 days.
    Mr. Burton. Can I say one more thing?
    Mr. Horn. Yeah.
    Mr. Burton. Thank you, Mr. Chairman. Let me just say I want 
to thank you very much for being so patient and waiting on us. 
I know that sometimes you have to sit through these long 
hearings, and it gets awfully--it drones on and on. But I 
really appreciate it.
    I was not aware of some of the things that just came up in 
the brief time that we have been here. But I can assure you 
that, working with Chairman Horn and Chairman Ose, that we will 
make the heads of the departments aware of this, and the new 
administration, and perhaps we can get some of these things 
done. We will sure try.
    Mr. Horn. We stand in recess. Thank you very much.
    [Whereupon, at 4:03 p.m., the subcommittee was recessed.]

                                   - 

</pre></body></html>
